Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
Main Tel (202) 263-3000
Main Fax (202) 263-3300

May 19, 2020

www.mayerbrown.com

Charles A. Rothfeld

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543

Re:

Direct Tel (202) 263-3233
Direct Fax (202) 263-5233
crothfeld@mayerbrown.com

No. 19-1094, Dailey v. Florida

Dear Mr. Harris:
Pursuant to this Court’s orders of March 19 and April 15, 2020, and the
Covid-19 Guidance issued by the Clerk’s Office on April 17, 2020, petitioner
moves the Court to delay distribution of the petition for a writ of certiorari in
this case for three weeks, from May 26, 2020, the currently scheduled
distribution date, to June 16, 2020.
The petition for a writ of certiorari was docketed on March 5, 2020, and
after a 30-day extension of time respondent State of Florida filed the brief in
opposition to the petition on May 6, 2020. In light of the work interference
caused by the Covid-19 pandemic, petitioner will have difficulty filing a reply
brief on the ordinary schedule. A three-week delay in distribution of the
petition would allow petitioner to prepare a reply brief that fully addresses
the points raised by the State in its opposition to the petition, and therefore
that is of greater assistance to the Court.
Counsel for respondent has informed us that the State has no objection
to this motion.
Thank you for your assistance.

Mayer Brown LLP operates in combination with our associated English limited liability partnership.

Mayer Brown LLP
Scott S. Harris, Clerk
May 19, 2020
Page 2

Sincerely,
[s]
Charles A. Rothfeld
cc: counsel of record

